                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




       FOLLOW-UP REVIEW OF CORPORATION
       POLICY AND CONTROLS FOR REFILLING
         VACATED AMERICORPS MEMBER
                POSITIONS/SLOTS
                     OIG REPORT 08-09




                 1201 New York Avenue, NW,
                          Suite 830
                   Washington, DC 20525
                  Telephone (202) 606-9390
                  Facsimile (202) 606-9397




This report was issued to Corporation management on January 25, 2008. The
Corporation’s response to the draft report agreed with the recommendation and is
considered to be the Management Decision. Under the laws and regulations
governing audit follow-up, the Corporation is to complete its corrective actions by
January 26, 2009. Consequently, the reported finding does not necessarily represent
the final resolution of the issues presented.
                                     Cor~orationfor       -
                                     NATIONAL &r
                                     COMMUNITY
                                     SERVICE-



                                        January 25,2008



TO:            Kristin McSwain, Director of AmeriCorps*State and National

FROM:          Carol Bates  CU>-
               Assistant lnspector General for Audit

SUBJECT:       Office of lnspector General Report 08-09, Follow-Up Review of Corporation
               Policy and Controls for Refilling Vacated AmeriCorps Member Positions/Slots

Attached is the final report on our Follow-Up Review of Corporation Policy and Controls for
Refiling Vacated AmeriCorps Member Positions/Slots.

Under the Corporation's audit resolution policy, the notice of final action is due by January 26,
2009.

If you have questions pertaining to the final report, please contact Jim Elmore, Audit Manager,
at (202) 606-9354.


Attachment

cc:   Jerry Bridges, Chief Financial Officer
      William Anderson, Deputy Chief Financial Officer
          for Financial Management
      Sherry Blue, Audit Resolution Coordinator




                       1201 New York Avenue, NW* Suite 830, Washington, DC 20525
                                       *                     *
                         202-606-9390 Hotline: 800-452-8210 www.cncsin.nov

                          Senior Corps * AmeriCorps * Learn and Serve America           Freedom Corps
                                                                                        Make a Difference. Volunteer.
                  FOLLOW-UP REVIEW OF CORPORATION POLICY AND CONTROLS FOR
                    REFILLING VACATED AMERICORPS MEMBER POSITIONS/SLOTS


                                                   Table of Contents




EXECUTIVE SUMMARY ........................................................................................................... 1

BACKGROUND ......................................................................................................................... 1

OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................................... 2

EXIT CONFERENCE ................................................................................................................. 2

OBSERVATIONS ...................................................................................................................... 2

CORPORATION RESPONSE ................................................................................................... 4

OIG COMMENT ......................................................................................................................... 4

APPENDIX: CORPORATION RESPONSE .............................................................................. 5




                                                                i
EXECUTIVE SUMMARY

The Office of Inspector General (OIG) reviewed the Corporation for National and Community
Service’s (Corporation) policy and controls for refilling vacated AmeriCorps member
positions (slots) because the Corporation revised its policies in May 2007. We also
reassessed the Corporation’s controls to ensure that AmeriCorps member enrollment does
not exceed the number of approved slots and complies with Corporation policy.

We found that controls were adequate to ensure enrollment does not exceed slot
availability. We also found manual control processes mitigated an automated control
process in the Web Based Reporting System (WBRS) that did not reflect policy provided in
AmeriCorps provisions. We recommended that the Corporation revise its automated, real-
time controls to agree with its policy, and the Corporation agreed with the recommendation.



BACKGROUND

AmeriCorps members enroll to serve in one of the three AmeriCorps programs:
AmeriCorps*State and National, AmeriCorps*NCCC (National Civilian Community Corps),
and AmeriCorps*VISTA (Volunteers in Service to America). Members earn education
awards if they complete required terms of service. The Corporation provides Federal
assistance through grants to various entities that enroll members; however, the Corporation
funds education awards earned by AmeriCorps members, whether in an initial slot or a
refilled slot, separately using funds appropriated for the National Service Trust (Trust). The
Corporation also directly enrolls and approves the enrollment of members in NCCC and
VISTA. The Corporation maintains the integrity of the Trust in part by controlling and
monitoring membership enrollment.

The Corporation’s data collection and reporting system, WBRS, was intended to reduce
duplication of information and speed up the process of data collection, make data collection
requirements clear, and make collected data available for the grantees’ use. AmeriCorps
State subgrantees or National grantees are required to use WBRS to record transactions for
AmeriCorps members, which included member service hours and changes to members’
status. Automated controls in WBRS also assist the Corporation in monitoring and
controlling slot refills. The Corporation plans for My AmeriCorps Portal (Portal) to replace
some WBRS capabilities and to be fully operational by April 2008.

The Corporation initially revised its refill policy in January 2005, permitting grantees to refill
the slots of AmeriCorps members who had terminated service before completing 15 percent
of their service hour requirements and who had not earned an education award. In
response to a Congressional request, the OIG reported in September 2004 on the proposed
safeguards the Corporation planned to implement to accommodate the revised refill policy.
We were satisfied that the Corporation had real-time data available to monitor enrollment
and refills, thereby preventing over enrollment.
In May 2007, the Corporation again revised its refill policy to allow grantees to refill
positions/slots for AmeriCorps members who had vacated their positions before completing
30 percent of their respective service terms, provided the members had not earned an
education award.



OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our review was to determine whether the Corporation had adequate
controls in place to prevent over enrollment of AmeriCorps members. We identified,
documented, and reviewed laws, policies, and procedures that apply to member enrollments
and examined changes in procedures and controls revised as a result of the Corporation’s
May 2007 revision of its refill policy. We also interviewed Corporation officials; compiled and
examined supporting documents used for recording and reporting enrollment; and analyzed
the information gathered.

Our review was conducted from October to November 2007 at Corporation headquarters,
and we held several meetings and telephone conversations with Corporation officials
through November 7, 2006. We provided a draft of this report to Corporation officials for
comment on December 17, 2007. The Corporation’s comments are included in the
Appendix to this report.

Our review was conducted in accordance with Quality Standards for Inspections
(January 2005) issued by the President’s Council on Integrity and Efficiency.



EXIT CONFERENCE

We conducted an exit conference with Corporation representatives on December 14, 2007,
and discussed the results of the review.



OBSERVATIONS

We reviewed the revised WBRS program scripts and discussed them with Corporation
officials, who demonstrated that WBRS revisions allow only the refill of slots vacated by
members who served less than 30 percent of their term of service and who did not meet the
requirements to earn a partial education award. The demonstration also showed that the
same slot cannot be refilled more than once.

We also reviewed the warning process that would automatically generate e-mails that notify
Corporation officials to suspend refilling slots when (1) the total AmeriCorps enrollment
reaches 97 percent of planned slots; or (2) the number of refilled slots reaches 5 percent of
planned slots. The system is configured to send e-mails to WBRS programmers and to an
official in the Office of Chief Financial Officer in the event that a threshold is breached. The
OIG reviewed WBRS scripts and examples of warning e-mails and confirmed
implementation of this control in WBRS. But we found that the calculations should have
                                               2
been based on awarded slots as provided in AmeriCorps Provisions, not planned slots.
AmeriCorps Provisions, AmeriCorps Special Provisions, IV.F. Changes in Member Status,
paragraph 3.c., states in part:

        Refilling Slots. Eligible AmeriCorps*State and National programs that
        have fully enrolled their awarded member slots are allowed to replace any
        member who terminates service before completing 30 percent of his/her
        term (effective May 17, 2007) provided that the member who terminates
        is not eligible for and does not receive a pro-rated education award.
        Programs may not refill the same slot more than once.

        As a fail-safe mechanism to ensure that corporate resources are available
        in the national service trust to finance any member’s education award, the
        Corporation will suspend refilling slots if either:

               i. total AmeriCorps enrollment reaches 97 percent of awarded
               slots or

               ii. the number of refills reaches five percent of awarded slots.

Notwithstanding this contradiction in WBRS, the Office of the Chief Financial Officer
independent of the WBRS control calculates this percentage (refills/awarded positions) each
month and would therefore be aware of instances in which refills breach the 97-percent or
the 5-percent thresholds.

We do not recommend revising WBRS to reflect Corporation policy because some WBRS
capabilities will be replaced by the Portal. However, without automated controls, the
Corporation lacks real-time visibility; therefore, the Corporation should incorporate
automated controls in the Portal that would reflect the 97-percent and 5-percent thresholds
of awarded positions.

Based on discussions with Corporation officials, their demonstration of WBRS program
scripts, and our review of documentation, we are satisfied that the Corporation has
adequate controls to:

    •   Allow only the refilling of slots vacated by members who served less than 30 percent
        of their respective term and who did not earn an education award;
    •   Allow refilling of a slot only once; and
    •   Provide the Corporation with visibility, although not real-time visibility, when refills
        have reached 97 percent of awarded slots or when the number of refilled slots
        reaches 5 percent of awarded slots.

Recommendation: We recommend that the Corporation incorporate automated controls of
refills into My AmeriCorps Portal that use awarded slots as the basis for calculating the 97-
percent and 5-percent thresholds, thereby providing the Corporation with real-time visibility
to prevent over enrollment.




                                               3
The Corporation stated that it plans to incorporate the automated controls over refilling
vacated AmeriCorps member positions/slots currently in WBRS into the Portal, including the
ability to use awarded slots as the basis for calculating the 97-percent and 5-percent
thresholds set forth in the policy. The Corporation's verbatim response to the draft of this
report is included as an appendix.



OIG COMMENT

The Corporation's planned action satisfies the intent of the recommendation.




c2.
Carol M. Bates
Assistant Inspector General for Audit
January 25, 2008
APPENDIX: CORPORATION RESPONSE




              5
                                      cmxorrnkAL &
                                      COMMUNITY
                                      SERVICE-



  January 15,2008

 Carol Bates
 Assistant Inspector General for Audit
 Corporation for National and Community Service
 Suite 830
 Washington, D.C. 20525

 Dear Ms. Bates:

 Thank you for the opportunity to comment on the draR audit report, Follow-Up Review of
 Corporation Policy and Controlsfor Refiling VacatedAmeriCorps Member
 Positions/Slots. The Corporation is pleased that the audit found that the Corporation's
 controls over refilling member positions are effective and working as intended.

 As the report notes, the Corporation is moving many of the member functions found in
 WBRS to the My AmeriCorps Portal. We plan to incorporate the automated controls
 over refilling vacated Amencorps Member Positions/Slots currently in WBRS in the
 portal, including the ability to use awarded slots as the basis for calculating the 97 percent
 and 5 percent thresholds set forth in the policy. Thank you for your helphl suggestions.
 We will keep you updated on our progress as we move forward.

 Sincerely,



/ k s t i n McSwain,
 Director
 AmeriCorps State and National

 Cc: Jerry Bridges, Chief Financial Officer
     William Anderson, Deputy Chief Financial Officer
     Sherry Blue, Audit Resolution Coordinator




                            1201 New York Avenue, NW     *
                                                     Washington, DC 20525
                                                  *
                                  202-606-5000 www.nationalservice.org
                            Senior Corps   * AmeriCorps * Learn and Serve America
